Terms and Conditions
The information provided below in these Terms and Conditions, along with the Cardholder
Agreement(s), certain account pricing and terms that were available to certain applicants
that applied for and were approved for certain credit card accounts on the last business
day of the calendar month that ended on February 28 2021. These account terms may
not be available after that date.
These documents are being provided to you for informational purposes only. If you apply
and are approved for a credit card account with us, your actual account terms will be
based on the terms of the offer available at the time that you applied, what you are
approved for and your actual Cardholder Agreement will be the agreement sent to you
when your account is first opened.
Farm Bureau Member Rewards MasterCard
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

0.00% Introductory APR for the first 9 billing cycles, 12.99% to 24.99% APR
after that based on your credit worthiness.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

25.24% APR.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

12.99% to 24.99% APR based on your credit worthiness.
This APR will vary with the market based on the Prime Rate.

Up to 27.24% based on your credit worthiness. This APR will be applied to
your account ifyoumake alate payment. This APRwill vary withthe market
based onthe Prime Rate.
Penalty APR and When it Applies

Paying Interest

How Long Will the Penalty APR Apply?: If your APRs are increased for this
reason, the Penalty APR may apply until you make six (6) consecutive
minimum payments when due.
Your due date is at least 25 days after the close of each billing cycle. We
will not charge you interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date. You will lose your grace
period on purchases if you do not pay the statement balance (including any
transferred or cash advance balances) in full each month, by the payment
due date.

Minimum Interest Charge

If you are charged interest, it will be no less than $2.00 ($0.50 for residents
of Iowa at the time of account opening).

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection Bureau
at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees

•

Balance Transfer Fee

$10 or 4% of the amount of each transfer, whichever is greater.
We may from time to time offer you lower Transaction Fees on
Balance Transfers and Checks.

•

Cash Advance Fee

Either $10 or 5% of each transaction amount, whichever is greater.

•

Foreign Transaction Fee

3% of each transaction in U.S. dollars.

Penalty Fees

•

Late Payment Fee

Up to $35 (the amount of the fee varies by state, see below)

•

Over-the-Credit-Line Fee

None

•

Returned Payment Fee

Up to $35 (the amount of the fee varies by state, see below)

Additional Check Related Fees

•

Returned Check Fee

Up to $35 (the amount of the fee varies by state, see below)

•

Check Stop Payment Fee

Up to $39.95 (the amount of fee varies by state, see below)

How We Will Calculate Your Balance: We use a method called "daily balance (including new purchases)". If you are a resident of Iowa at the
time the account is opened, we use a method called "average daily balance (including new purchases)". These methods are explained in the
cardholder agreement.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Military Lending Act: Covered borrowers under Military Lending Act; Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed
Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation fees for a credit card account). Please call our toll-free number 800.492.3276 from
Monday-Friday, 7am-7pm CT and Saturday, 8am-12pm CT if you would prefer an oral disclosure of the payment obligation for this account
before using the account or activating the card.
Fees that Vary By State:
Late Payment Fee: Up to $35 (Up to $15 for residents of Iowa at time of account opening).
Returned Payment Fee: Up to $35 (Up to $15 for residents of Iowa at time of account opening).
Returned Check Fee: Up to $35 (Up to $20 for residents of Iowa at time of account opening).
Check Stop Payment Fee: Up to $39.95 (Up to $29 for residents of Iowa at time of account opening).
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the cardholder agreement.
As of 2/28/2021 the PrimeRate was 3.25%.

